Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

2.99% introductory APR for one year.
After that, your APR will be
your creditworthiness.

APR for Balance Transfers and
Convenience Checks

8.40% - 22.40%*, based on

This APR will vary with the market based on the Prime Rate.*
2.99% introductory APR for one year
After that your APR will be 8.40 - 22.40%* based on your
creditworthiness.

APR for Cash Advances

This APR will vary with the market based on the Prime Rate.*
8.40 - 22.40%*.

How to Avoid Paying
Interest on Purchases

This APR will vary with the market based on the Prime Rate.*
22.40%. This APR will be a fixed APR during the penalty period.
The penalty APR will be applicable to your Account if you:
Fail to make the Minimum payment by the date and time due on
the account for 3 (three) consecutive months.
Make a payment to us that is returned unpaid and you fail to
make the two other consecutive Minimum payments on the
account by the date and time due.
How Long Will the Penalty APR Apply: If your APRs are
increased for any of these reasons, the Penalty APR will apply
until you make six consecutive minimum payments when due.
Pay full amount of the New Balance of Purchases within 25 days
of your statement closing date.

Minimum Interest Charge
For Credit Card tips from
the Consumer Financial
Protection Bureau

If you are charged interest, the charge will be no less than $1.00
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Finance
Protection Bureau at http://www.consumerfinance.gov/learnmore.

Penalty APR
and When It Applies

SEE BACK OF PAGE for more important information about your account

Fees
Annual Fee
Transaction Fees:
 Cash Advance and
Convenience Checks

None

3% of transaction amount or $5 minimum



Balance Transfer

$0



Foreign Transaction

$0

Penalty Fees:
 Over the Limit

None



Late Payment

The lesser of minimum payment due or $25.



Insufficient Funds

The lesser of minimum payment due or $25. (Check, MasterCard AutoPay
or other electronic means)

Other Fees:
 Document Copy


Lost Card Reissue

$5 max/item
$10

How We Will Calculate Your Balance: We use a method called “average daily balance
(including new purchases).”

* Variable Rate Information: Prime Rate: Variable APRs are based on the 3.50% Prime Rate as
th
of January 17 , 2016. The ANNUAL PERCENTAGE RATE may increase during the term of this
agreement if the rate disclosed as the U.S. Highest Prime Rate published in the Wall Street
Journal in the cycle prior to the billing date. The ANNUAL PERCENTAGE RATE will be
calculated by adding a margin to the index. . Margin is determined by your creditworthiness. The
maximum ANNUAL PERCENTAGE RATE will not exceed 18%, or the rate permissible under the
Federal Credit Union Act, whichever is less. Any increase in the ANNUAL PERCENTAGE RATE
will result in a higher monthly payment; a decrease will result in a lower monthly payment.
Defined Terms: Capitalized terms used in this Disclosure but not defined herein have the
meanings given to such terms in your Cardholder Agreement.
th

Effective Date: This Disclosure is effective as of January 17 , 2016.

